CERTIFICATE OF WORD COUNT
NO. TBD
Sean A. Clark,
- Petitioner(s),v.
Commissioner of Social Services,
Respondents).
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1 (h), I certify that the Sean A. CLARK PETITION
FOR Writ of Certiorari contains 8934 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Dan Abramovich

January 21,2020
SCP Tracking: Clark-93 4th Avenue 1172-Cover White

CERTIFICATE OF SERVICE
NO. TBD
Sean A. Clark
Petitioner(s)
v.
Commissioner of Social Services
Respondentsj
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Sean
A. Clark Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Cara Brown Chomski
NYS Office of the Atty General
28 Liberty Street, 15th Floor
New York, NY 10005
(212)416-8177
cara.chomski@ag.ny.gov
Counselfor Commissioner ofSocial Services

N
i '

Dan Abramovich
January 21,2020
SC? Tracking: Clark-93 4th Avenue 1172-Cover White

